                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: 104100034
                                                                               11          Page 1 of 1




          We received an allegation that a PI' failed to make a budgeted subaward on a funded proposal2and
          in fact never intended to make the subaward when submitting the proposal and budget to NSF. We
          reviewed relevant program jackets and talked to the Program Officer and Grants Officer regarding
          this allegation. We have determined that there is no evidence to substantiate the allegation.
          However, we did uncover a potential audit issue involving the lack of oversight on funded awards
          that liew program officers have inherited from departing program officers. We have referred this
          issue to audit.                                                                          I
                                                                                                   I

          Accordingly, this case is closed.




I'
 NSF OIG Fonn 2 (1 1/02)
